                                             AUDIT OF 


                         ATLANTA DISTRICT OFFICE 7(a) LOANS 


                                      ATLANTA, GEORGIA 


                              AUDIT REPORT NO. 8-7-F-OI9-014 


                                            May 13, 1998 





This report may contain proprietary information subject to the provisions of 18 USC 1905 and must not be
released to the public or another agency without permission of tbe Office of Inspector General.




                                                                                                           I
                                                                                                        I
..                                                                                                      i

                                                                                                        I
                                U.S. SMALL BUSINESS ADMINISTRATION 

                                    OFFICE OF INSPECTOR GENERAL 

                                         Washington, D.C. 20416 





     Date:         May 13, 1998

     To:           Laura A. Brown, District Director
                    Atlanta District Office

                   Richard Taylor, Director
                   If.ferred Lend~t Program (PLP) Loan Processing Center

     From:         ~1: I!{i-Jltritocf.xsSistant Inspector General
                     for Auditing

     Subject:      Audit of Atlanta District Office 7(a) Loans


            Attached is a copy of the subject report. The report contains two findings with six
     recommendations for the District Director, Atlanta District Office, and two recommendations for
     the Director, Preferred Lender Processing Center.

             The recommendations in this report are subject to review and implementation of
     corrective action by your office in accordance with existing Agency procedures for audit follow­
     up. Please provide your management response to the recommendations within 30 days from the
     date of this report, using the attached SBA Forms 1824, Recommendation Action Sheet.

            Any questions or discussion of the issues contained in the report should be directed to
     Garry Duncan at (202) 205-7732.



     Attachment
.. 


                                          AUDIT OF 7 (a) LOAN PROCESSING 


                                               ATLANTA DISTRICT OFFICE 


                                                            ATLANTA,GA 



                                                      TABLE OF CONTENTS 



                                                                                                                              Page

   SUMMARY .......................................................................................................................i 


   INTRODUCTION

             A. Background ....................................................................................................... 1 


             B. Audit Objective and Scope ................................................................................ 1 


             C. Follow-up on Prior Audits ................................................................................2 


   RESULTS OF AUDIT

   Findings and Recommendations

             1. 	 SBA 7(a) Guaranteed Loans were not Always Processed, 

                  Disbursed, and Used in Accordance with SBA Requirements ........................ .3 


             2. 	 Loans Were not Always Disbursed Within Required Time Limits .................. 11 



       OTHER MATIERS 

             Lender Misrepresentation ....................................................................................... 12 


             Borrower Misrepresentation ................................................................................... 13 



       APPENDICIES

              A- Schedule of Loans Reviewed 

              B- SBA Management Responses 

              C- Audit Report Distribution 

                                          SUMMARY

       The audit was part of a nationwide review to determine whether 7(a) loans were
processed, disbursed, and used in accordance with Small Business Administration (SBA)
requirements. The Atlanta District Office was assigned 927 loans valued at $402 million from
March 1, 1996, to June 30, 1997. The loans, made to small business concerns within the state of
Georgia, were processed by the District Office and the Preferred Lender Program Processing
Center. We selected a random sample of 30 loans valued at $12.5 million for review.

        SBA has established procedures for lenders and SBA loan officers to follow to reduce
risk associated with loan making and to assure that only eligible loans are guaranteed. Failure to
follow these procedures increases the chance that ineligible or risky loans will be approved. We
reviewed lenders' compliance with 22 such procedures. In the period audited, we determined
that for 15 of the 30 loans, lenders did not follow at least one of the procedures reviewed.

       For the 15 loans, the non-compliance with procedures consisted of the following:

       • 	 A conflict of interest was not reported to SBA (1 loan). The lender allowed the 

           borrower to use $218,306 of a $378,000 loan to repay debt owed to the lender. The 

           lender's refinancing of its own debt increased the risk that the loan was not· 

           objectively made. 

       • 	 A portion of loan proceeds was not used for eligible purposes (2 loans). Proceeds 

           totaling $29,479 were used to pay personal debt and to fund an equity injection on a 

           SBA 504 program loan. These are prohibited uses of loan proceeds. 

       • 	 Cash injections were not verified prior to disbursement (4 loans). Without the
           required cash injections, borrowers may have insufficient working capital and
           commitment to the business. For the four loans, borrowers did not inject $239,188 as
           required by the loan agreement
       • 	 Business financial information was not verified with the IRS prior to disbursement of
           loan proceeds (7 loans). Without verified business financial data, loan decisions
           could be based on financial data that is not credible. For one loan totaling $340,000,
           the lender did not verify business financial information with the IRS. The required
           verifications for the other six loans were made after disbursement.
       • 	 Business and personal credit reports were not obtained (4 loans). Credit reports are
           necessary to determine the borrowers' credit history and whether the borrowers have
           shown past willingness to pay debts. Our subsequent review disclosed satisfactory
           credit.
       • 	 A size determination was not made properly (1 loan). SBA loans can only be made to
           businesses that meet small business size standards. The affiliates of the borrower
           were not included in the size determination.
       • 	 Joint payee checks or other controls were not used in disbursing $10,000 of loan 

           proceeds for other than working capital (1 loan). Without the use ofjoint payee 

           checks or other controls, the loan proceeds are at risk for improper use. A review of 

           the use of the loan proceeds disclosed no problems. 


                                                 i

                                                                                                     \
        We also identified four loans either lacking timely disbursements or with misrepresent­
ations. Two loans with guarantees totaling $1.4 million were not disbursed within the time
specified in the loan authorization. For a third loan, a lender made a false representation to SBA
regarding receipt of the IRS verification, and for the fourth loan a borrower made a false
statement concerning his criminal history.

        As of December 31, 1997, 21 of the 30 sample loans were current, 1 was past due, 1 was
paid in full, 4 were canceled, and 3 were undisbursed. Lender responses regarding the loans
indicated the deficiencies were due to both intentional and unintentional loan officer errors, as
well as loan officer lack of knowledge of the SBA requirements.

      We recommend the Atlanta District Office Director take the following actions to protect
SBA's interests:

       •	      Reduce the guarantee percentage to reflect the borrower's ineligible use of
               proceeds.
       •	      Obtain a verification of the equity injection from the lender or reduce the
               guarantee percentage to reflect the lack of injections.

       •	      Obtain a guarantee release or an indemnification agreement.
       •	      Re-emphasize lender responsibilities for verification of equity injections and IRS
               fmancial data.
       •	      Cancel guarantees for each loan not disbursed by the time specified in the loan
               authorization.
       •	      Require lenders to either request an extension of the disbursement period or
               cancellation of the loan guarantee when disbursement is not made within the
               specified time limit.

        We recommend that the Director, PLP Loan Processing Center, take the following actions
to protect SBA's interests:
       •	      Obtain a guarantee release from the lender or, in the event the lender fails to
               release SBA from the guarantee, recommend revocation of the guarantee to the
               Administrator.
       •	      Obtain a verification of the equity injection from the lender or reduce the
               guarantee percentage to reflect the lack of injection.

        In response to a draft report, the Atlanta District Director and the Director, PLP Center,
disagreed with the recommendations relative to finding 1. The District Director agreed with the
recommendations in finding 2. Management comments and our evaluation are included on pages
8, 9 and 11 of the report.

        The findings in this report are the conclusions of the oro's Auditing Division based on
testing of the auditee's operations. The findings and recommendations are subject to review,
management decision, and corrective action by your office in accordance with existing Agency
procedures for follow-up and resolution.


                                                 ii
                                        INTRODUCTION 


A.     BACKGROUND 


        Audits of the SBA LowDoc Loan Program (a subsection of the 7(a) Loan Program) in
1996 and 1997 showed that lenders and SBA district offices were not always processing loans in
compliance with existing policies and procedures. At the request of SBA's Office of Financial
Assistance, we initiated an audit of the 7(a) Loan Program to determine if a similar level of non­
compliance exists. Our evaluation will be presented in a summary report combining the results
of eight individual audits. This report presents the audit results for one site.

        Section 7(a) of the Small Business Act of 1958, as amended, authorizes SBA to provide
financial assistance to small businesses. SBA provides this financial assistance primarily by
guaranteeing loans made by participating lenders to small businesses. ,To obtain the SBA
guarantee, a lender must have continuing ability to evaluate, close, service, and liquidate loans in
accordance with SBA requirements. A Loan Guaranty Agreement between SBA and the lender
requires the lender to abide by SBA regulations and procedures and allows the lender to request
SBA purchase of borrower defaulted loans.

         Generally, SBA regulations and procedures require both the lender and SBA to review
the borrower's eligibility, repayment ability, management qualifications, character, credit
worthiness, and adequacy of collateral for loans submitted under regular procedures. The most
active and expert lenders qualify for SBA's Certified Lender Program (CLP) and Preferred
Lender Program (PLP), respectively. Under CLP procedures, SBA utilizes the credit
presentation of the lender and makes a credit and eligibility determination. Under PLP
procedures, the Sacramento PLP Loan Processing Center reviews the loan application solely for
eligibility .

B. AUDIT OBJECTIVE AND SCOPE

         The audit objective was to determine whether 7(a) loans (excluding special programs
such as LowDoc, FA$TRAK) were processed and proceeds disbursed and used in accordance
with SBA requirements. Special loan programs were excluded because the Office of Financial
Assistance suggested a review of the regular 7(a) loan program. The audit was based on a
statistical sample of 30 loans valued at $12.5 million out of a population of 927 loans for $402
million made to small businesses in the state of Georgia between March 1, 1996, and June 30,
1997.

        The criteria used to evaluate loans consisted of 22 procedures selected from SBA's
Standard Operating Procedures. These procedures were selected to facilitate a comparison to the
results of the prior LowDoc audits.

        The auditors reviewed lender and SBA file documentation for each loan in the sample;
interviewed borrower, lender, and SBA district office personnel; and visited businesses to review
records. Field work was performed during September and October 1997. The audit was
conducted in accordance with Government Auditing Standards.



                                                 1
C. FOLLOW-UP ON PRIOR AUDITS

        The Office oflnspector.General issued a report on July 7, 1997, (number 7-F -006-017)
on the Low Documentation Loan Program (LowDoc), a subset of the 7(a) loan program. The
report recommended that the District Director request the lender to release SBA from the
guarantees on three loans because of false statements made by lenders and borrowers, failure to
disclose material information about a borrower's creditworthiness, and lack of compliance with
SBA's tax verification policy. We also recommended that the District Director review the
financing of a loan to determine if the lender's objectivity was impaired by a conflict of interest
and, ifso, recommend withdrawal of the guarantee. In addition, we recommended that LowDoc
lenders be notified of their responsibilities in processing and disbursing LowDoc loans and offer
training to those lenders who need it. The District Director generally agreed with the
recommendations but indicated that guarantees would be denied only if SBA were requested to
honor them. The issue of the timing of a guarantee withdrawal has been referred to the Acting
Associate Administrator for Financial Assistance. Her decision on an SBA policy is pending.




                                                 2

                                      RESULTS OF AUDIT 



FINDING 1 	 SBA 7(a) Guaranteed Loans were not Always Processed, Disbursed, and
            Used in Accordance with SBA Requirements

        SBA has established procedures for lenders and SBA loan officers to follow in reducing
risks associated with loan making and assuring that only eligible loans are approved. The chance
that risky or ineligible loans will be approved is increased when these procedures are not
followed. In our sample, at least one processing or disbursing deficiency was identified for 15 of
30 loans reviewed. Noncompliance with established procedure resulted in $312,979 for three
loans being inappropriately guaranteed. Corrective action is necessary to preclude guarantee
adjustments applicable to $432,000 on four loans. The remaining eight loans did not require
guarantee adjustments because corrective action had been taken.

Loan Proceeds were not Used for Eligible Purposes

         For three loans part or all of the guarantees were ineligible because the loan proceeds
were used for prohibited purposes. For two of these loans, portions of the guarantees were
ineligible because part of the loan proceeds were to be used to help obtain other SBA assistance
or' for non-business purposes. The guarantee for the other loan was ineligible because the lender
did not disclose to SBA that the loan created a conflict ofinterest by reducing the lender's
financial exposure. The Code of FederaI Regulations (CFR) prohibits SBA from providing
guarantees for loan proceeds used for the aforementioned purposes. The following details are
provided about the three loans.

       • 	 A loan for C        1 (sample number 29), processed under PLP procedures, was
           approved in t: _        J for the purchase of an existing business by the applicant. Our
           review of the disbursement of the loan proceeds showed that $218,306 was repaid to
           the lender on behalf of the seller. Thus, the financing resulted in a conflict of interest
           because the loan reduced the lender's financial exposure. The lender stated he
           disclosed seller's debt to SBA, but there was no evidence the lender notified SBA of
           the conflict or used objective judgment to evaluate the loan.

           Section 120.140 of the CFR states, in part, that a lender may not fail to disclose to
           SBA whether the loan will repay or refinance a debt due a lender, or engage in
           activity which taints the lender's objective judgment in evaluating the loan. The
           lender's loan officer stated he acted in the borrower's best interest by ensuring that
           the title to the business was clear and that it did not occur to him that the financing
           constituted a conflict of interest. As of December 31, 1997, the loan was current.

       • 	 A loan fort.         J (sample number 25), processed under CLP procedures, was
           approved in 0::: _       J for the purpose of debt refinancing, purchase of assets,




                                                 3         Ex. 

   working capital, and building improvements. The proceeds were required to be
   disbursed as follows:

       $ If" 	        Property acquisition costs 

                      Refinance non-bank debt 

                      Refmance bank debt 

                      Refinance an automobile 

                      Purchase inventory 

                      Purchase a van 

                      Working capital 

                      Building improvements 

          L      j
   Our review of the disbursement of loan proceeds showed that $17,479 was used to
   refmance a loan for an automobile registered in the name of the borrower's spouse.
   The spouse was not shown as an owner of the business on the loan application. The
   borrower stated that the car was used in the business all the time and the lender's loan
   officer stated that she thought the car was used in the business. Neither could supply
   evidence to support their contentions.
   Further, it was disclosed that the car was a personal asset since it was listed on the
   borrower's personal financial statement and could not be identified on the business
   fmancial statement. The use of this portion of the proceeds is not considered
   appropriate because Section 120.120 of the CFR states that an SBA business loan
   must be used for sound business purposes. As of December 31, 1997, the loan was
   current.
• 	 A loan for t.      ~ (sample number 14), processed under PLP procedures, was
    approved in t.             ::r to finance C    J of working capital and $12,000 for a
    portion of the equity injection required for a companion 504 loan made by another
    lender. Section 120.910 of the CFR prohibits the use of7(a) loan proceeds to fund an
    SBA 504 Program loan equity injection. .

   The Chief, Finance Division, Atlanta District Office, stated that the documentation
   for the 504 Program loan did not disclose that a portion of the borrower's equity
   injection was to be obtained from 7(a) loan proceeds. Further, the SBA loan officer
   who approved the 7(a) loan stated that she was unaware of the intended use of the
   loan proceeds because the loan application was submitted under PLP processing
   procedures. The lender's loan officer stated that she was aware of the regulatory
   prohibition and that the use of the loan proceeds for equity injection for the 504 loan
   was an oversight.

   Since neither loan had been disbursed, we issued an audit-related memorandum report
   on September 26, 1997 (Number 7-7-F-019-024), recommending that the Director,
   PLP Loan Processing Center, reduce the approved amount ofthe loan by $12,000. As
   a result of our report, the entire loan was canceled.



                                         4           Ex.    4
Equity Injections were not Verified Prior to Disbursement

         Guarantees for four current loans need to be adjusted due to unresolved risk caused by
lender noncompliance. For these loans, lenders did not ensure that required equity injections
were made. The Authorization and Loan Agreements (loan agreement) for the loans state, "Prior
to first disbursement, Lender must be in receipt of satisfactory evidence (invoices, receipts,
canceled checks, etc.) that Borrower and/or Guarantor(s) haslhave made the requisite equity
injection."

        By not complying with the loan requirements, lenders increased the risk that borrowers
may not remain committed to the business or that the business will have insufficient cash flow.
Details of the four loans follow.

       • 	 A loan for c:       J (sample number 5), processed under CLP procedures, was
           approved in"(.        :J for the purchase of an existing business. The loan agreement
           called for the borrower to inject $10,000 into the business prior to disbursement of the
           loan proceeds. At closing, the borrower stated he put $5,000 in his business account
           and showed the lender a stock certificate worth $5,000. The borrower subsequently
           stated that the $5,000 placed in the business account was comprised ofloan proceeds
           and funds received from the seller for vacation pay due employees.
           When asked about the lack of an equity injection, the lender's loan officer stated that
           the fact that the borrower appeared to have the resources for the equity injection was
           sufficient. When capital injections are not made, however, the borrower may be less
           committed to the business with the SBA being put at greater financial risk. The loan
           was current as of December 31, 1997.
       • 	 A loan fo: C       ::f (sample number 11), processed under regular processing
           procedures, was approved in-r          -:. for the purchase of a hardware store and
           working capital. The business purchase price of $590,000 was based on an informal
           valuation of the business assets. The loan agreement called for an equity injection of
           $100,000 consisting of $50,000 credit for "foregone bonuses" due the buyer when he
           was an employee and $50,000 in seller subordinated financing. The SBA financing
           would have provided the remainder of the sales price and 1::.       "J in working capital.

           The "foregone bonuses" provided the appearance of equity in the business by the
           buyer. However, there was no liability in the seller's financial statements
           representing the "foregone bonuses" and no evidence that an actual payment had ever
           been made.
           Based on a formal inventory of the business assets, the business was valued at
           $445,410, with a resulting reduction of the business sales price to $495,410. Thus the
           borrower purchased the business at a premium with no seller financing. The SBA
           guaranteed loan financed the entire purchase, allowed the buver to forel!o the seller
           fmancing, and increased the working capital to . ~                                 J
           The loan was current as of December 31, 1997.




                                                 5

        • 	 A loan for c:    .:> (sample number 28), processed under regular procedures, was
            approved 1:.          J to acquire a poultry farm. The loan agreement required an
            equity injection of $65,000, of which $60,000 was for the purchase of the business
            and $5,000 for working capital. The equity injection was required to be from the
            personal funds of the buyer. The buyer indicated that retirement funds from his prior
            job would be sufficient to satisfy this requirement.

            The borrower obtained a $60,000 note from the seller in place of the required cash
            equity injection. The borrower did provide receipts supporting the expenditure of
            $2,812 toward the required equity injection. When asked why the total required cash
            was not injected, the buyer stated that he could not obtain his retirement funds from
            his former employer. Therefore, the lender did not ensure that additional cash of
            $62,188 ($65,000 minus $2,812) was injected into the business prior to loan closing.
            The loan was current as of December 31, 1997.

        • 	 A loan for C . l' (sample number 22), processed under PLP procedures, was
            approved in .J:         :l for purchase of an existing business. The loan agreement
            required an equity injection of $1 07,000 comprised of a $40,000 note to the seller and
            $67,000 from personal funds. Documentation provided by the lender showed
            $58,716 disbursed from the business accounts prior to loan closing. No support was
            provided that these funds had been injected from personal assets or that the remaining
            $8,284 was injected into the business. The lender had no explanation why the
            documentation for the remaining equity injection was not available. The loan was
            current as of December 31,1997.

Business Financial Information was not Verified with IRS Prior to Disbursement

        On seven loans lenders did not verify business financial information with the IRS prior to
disbursement. The guarantee for one loan may need to be adjusted due to unresolved risk
resulting from the lender not performing IRS verification of information provided by the
borrower. SBA Policy Notice 9000-941 requires lenders to obtain IRS verification of financial
information of the small business concern or for a business being purchased prior to loan
disbursement. The required verifications for the other six loans were made after disbursement or
at our request.

        For one loan (sample number 28, mentioned above), the lender did not attempt to obtain
IRS verification of the seller's financial information. The lender's loan officer stated that he did
not normally verify the returns of selling individuals. As the borrower's projected repayment
ability was based on the seller's historical financial data, verification of this data was necessary to
minimize the risk of this loan.

       Lenders did not verify business financial information with the IRS prior to six other loans
being disbursed (sample numbers 3, 5, II, 17, 21, and 29). We determined that the verifications
were made either after the loans were disbursed or at our request. As of December 31, 1997, five
loans were current and one was paid in full.


                                                  6

Business and Personal Credit Reports were not Obtained

         Lenders did not obtain either personal or business credit reports for four loans (sample
numbers 1, 27, 28, and 30). SBA requires that lenders evaluate a borrower's credit history as a
part of the creditworthiness determination. In addition, Office of Management and Budget
Circular A-129 requires that credit histories of applicants be verified through credit reports.
Although our subsequent review of the borrower's credit reports disclosed no significant
problems, the risk of approving a loan for an applicant who was not creditworthy was increased
by the lender's noncompliance. As of December 31,1997, three loans were current and one was
not disbursed.

Appropriate Size Determination was not Made

        For one loan (sample number 7) the lender did not evaluate a borrower's affiliates when
making a size determination. There was no evidence in the file that the affiliates were considered
when the borrower's size was determined. Section 121.302 of the CFR requires that a size
determination including affiliates of the borrower be made as of the loan application date. Our
analysis showed that the borrower and its affiliates met size standards. As of December 31, 1997,
the loan was current.

Required Joint Payee Checks were not Made

        For one loan (sample number 16) the lender did not use joint payee checks to disburse
$10,000 ofloan proceeds designated as other than working capital. SOP 70 50 2, paragraph
3.F(I), and the Settlement Sheet (SBA Form 1050) require that the lender use joint payee checks
to disburse loan proceeds not designated as working capital. A review of the use of loan
proceeds disclosed no problem. As of December 31, 1997, the loan was current.

Relationship of Loan Deficiencies to SBA Oversight

        The majority of loans with deficiencies were originated when SBA had limited or no
oversight of the lender'S loan processing and disbursing. For certain loan processing and
disbursing actions, an SSA district office would normally be unaware of how and when the
action was done because no documentation of the action was required to be submitted to SSA.
These actions include, but are not limited to, equity injections, IRS verifications, and use ofloan
proceeds. In addition, district offices would be unaware of conflict of interest situations if
lenders did not voluntarily request approval. District offices also are unaware of almost all
actions for loans processed under PLP procedures.

        Of the 20 deficiencies identified, 16 were processing or disbursing actions not normally
reviewed by or reported to SSA under existing procedures. As a result, the deficiencies
generally would not be identified by SSA under existing procedures, until after the loan
defaulted and the lender requested the guarantee be honored. The remaining four deficiencies
should have been identified during the SSA loan officer's review.




                                                 7

Reasons for lender deficiencies

       Because lenders were responsible for most of the deficiencies identified, we asked them
why the deficiencies occurred. The following reasons were provided:
       Loan officer disagreed there was a deficiency                5 deficiencies
       Loan officer intentional error                               4 deficiencies
       Loan officer unintentional error                             4 deficiencies
       Loan officer lack of knowledge                               3 deficiencies
      This issue will be further considered in a summary report because actions to minimize
SBA's risk must be implemented agency-wide.

Recommendations

We recommend the Atlanta District Office Director take appropriate action to protect SBA's
interests by:

       1A. 	   Reducing the guarantee percentage for sample number 25 to reflect the borrower's
               ineligible use of$17,479.
       lB. 	   Obtaining a verification of the equity injection for sample numbers 5 and 11 from
               the lender or reducing the guarantee percentage to reflect the lack of injections of
               $10,000 and $100,000, respectively.
       1C. 	   Obtaining a guarantee release or an indemnification agreement from the lender
               due to the lender's failure to verify the equity injection and to obtain IRS
               verification of the seller's financial data for sample number 28.
       lD. 	   Re-emphasizing to lenders their responsibility for verifications of equity
               injections and IRS financial data.

        We recommend that the Director, PLP Loan Processing Center take appropriate action to
protect SBA's interests by:                                       '

       IE. 	   Obtaining a guarantee release from the lender for sample number 29, or if the
               lender fails to release SBA from the guarantee, recommend its revocation to the
               Administrator.
       1F. 	   Obtaining a verification of the equity injection from the lender or reducing the
               guarantee percentage to reflect the lack of injection of $67,000 for sample number
               22.

Atlanta District Director's Response

        The District Director did not agree to reduce the guarantee percentages for sample
numbers 5, 11, or 25 or obtain a guarantee release for number 28 because these loans were not
considered at risk for the following reasons:


                                                 8

        • 	 For sample # 5 there were mitigating circumstances that are already reflected in the
            guarantee reduction of75 to 50 percent. The reduction of the guarantee increased the
            risk to the applicant, the seller, and the lender. The opening of the business account
            with $5,000 should be recognized as an equity injection regardless of the source. A
            further reduction of the guarantee percentage would not serve a meaningful purpose.
       • 	 For sample #1 i the SBA guaranteed loan did not finance the entire purchase of the
           business. It financed $445,410 of the purchase accompanied by the buyer Iseller
           input of$IOO,OOO. Thee          J was added to working capital based on the reduced
           inventory, and provided the applicant sufficient funds to purchase replacement
           inventory necessary for the attaimnent of the projected sales level. The net effect of
           the various changes was a reduction of the purchase price which preserved the
           business. Reduction of the guarantee percentage would not be deemed to be
           meaningful under the circumstances.

       • 	 For sample # 25 the loan proceeds were used to refinance a Jeep. However, it was not
           determinable that the refinanced vehicle was a personal asset, and the personal vehicle
           aspect has not been sufficiently analyzed to make an eligibility determination.
           Further study is needed.
       • 	 For sample # 28 the applicant and lender were not in compliance with the loan
           authorization. The applicant was given credit at closing for $25,000 in earnest money
           and paid $3,938.64. Therefore, the difference if $36,061.36 is at issue, but should be
           allowed to be offset by the $60,000 note due to the seller. This note reduced the risk
           to the Agency. The note has since been paid in full.
         The District Director also did not agree to re-emphasize to lenders their responsibility for
verification of equity injections and IRS financial data because, if the loans were to default, these
issues would be addressed in the pre-purchase review process.

Evaluation ofthe Atlanta District Director's Response

        As stated in the audit report, the lenders did not provide appropriate oversight to ensure
compliance with the loan authorization as required by the Loan Guarantee Agreements, thereby
increasing SBA's risk and decreasing the risk to the lender and borrower. We continue to
support our recommendations based on the following:

       • 	 Sample # 5 - The borrower did not inject $10,000 into the business from personal
           resources as was required in the loan authorization. As stated in the report, the $5,000
           the borrower put into the business was composed of SBA loan proceeds and the
           seller's payment of vacation pay due employees. These are business assets that do
           not meet the definition of personal resources of the borrower and do not satisfy the
           intent of the equity injection requirement. The mitigating factors cited by the District
           Director, the strong cash flow of the business, the borrower's good credit, and the
           decrease in the guarantee amount from 75 to 50 percent, were known at the time the




                                                 9

           loan was originated, and still it was deemed prudent to require the equity irUection.
           Therefore, these factors can not be used to offset the lack of the required injection.

       • 	 Sample # 11 - The loan authorization required a $100,000 equity injection in the form
           of $50,000 in forgone bonuses and subordinated seller debt of $50,000. Neither the
           borrower nor the seller, however, could substantiate that any forgone bonuses existed
           and the seller financing was never made. Therefore there was no buyer/seller input of
           $100,000 as the District Director asserts. As stated in the report, SBA made a 100
           percent financing and the contractual agreement for equity injection was not met.

       • 	 Sample # 25 - There was sufficient evidence in the lender's file (which SBA did not
           review) to indicate that the jeep was not an asset of the business and therefore,
           refinancing of this debt was not an eligible use of SBA loan proceeds. The vehicle
           was in the name of [             ";J who was not listed as an owner of the business.
           Both the jeep and the related $17,000 debt were listed in the borrower's personal
           fmancial statement, and the jeep was the only vehicle the borrower listed in those
           statements. Although the slistrict wrector
                                      ~         v
                                                       indicated that further study was needed, she   v
           did not indicate that further review would be done.

       • 	 Sample # 28 - The borrower should not be given credit for an equity injection of
           $28,938.64. The $25,000 used by the borrower for the escrow payment was obtained
           from the lender as an interim loan and was repaid with SBA loan proceeds. As these
           were not personal funds, the transaction did not meet the definition or spirit of the
           equity injection requirement. The remaining $3,938 was received by the borrower at
           closing, not paid by the borrower, and therefore, should not be considered an equity
           injection. The $60,000 note due to the seller should not be used to offset the equity
           injection requirement. While this debt does allow SBA to maintain the same level of
           risk, and increases the risk to the seller, it reduces the risk to the borrower and does
           not commit the borrower to the project. The District Director does not state whether
           the seller's debt was repaid from personal funds or business proceeds.

        There is no assurance that SBA would have identified these noncompliances during the
pre-purchase review process. The totality of the deficiencies identified indicates the need for
action to be taken to enforce lender compliance now. Seven of the 30 loans (23 percent of the
sample) had a noncompliance with the IRS verification requirement. Four of the 30 loans (15
percent) had a noncompliance with the equity injection requirement. These noncompliance
levels indicate the need for re-emphasizing the IRS verification and equity injection criteria to
lenders.

PLP Center Director's Response

        The PLP Center Director, while not disagreeing with the facts and conclusions presented,
stated that the recommendations do not conform to current or past SBA policy. The policy
consists of SBA asking lenders to correct deficiencies noted, and if the deficiencies cannot be
corrected, the lenders are advised in writing that the deficiencies may affect SBA's decision
regarding purchases of the guarantee if a request for purchase is initiated. The Center Director
stated that there is no procedure to recommend denial of a guarantee on a current loan for which



                                                10 

there is no guarantee request pending, and that unless the Acting Assistant Administrator for
Financial Assistance (AAfFA) changes the current policy, the PLP Center cannot consider
complying with the recommendations.

Evaluation of the PLP Center Director's Response

        We have researched the Code of Federal Regulations, SBA's Standard Operating
Procedures, and various policy and procedural notices, but have not been able to identify the
policy discussed by the PLP Center Director.

        Because this may be informal SBA policy, we will postpone audit evaluation of
management comments until audit follow-up on the Low Documentation Loan Program audit is
completed. As a result of the LowDoc audit, the Acting AAfFA and the DIG are currently
identifying deficiencies that are so material or serious that denial or repair of the guarantee prior
to a request to purchase is warranted. This will provide the basis for a policy stating the
circumstances when SBA will notify a lender, prior to loan default or a purchase request, that
SBA will not honor or will request a repair of the guarantee.

FINDING 2 Loans were not Always Disbursed within Required Time Limits

         Two loans, with guarantees totaling $1,486,660, were not disbursed within the time limits
specified in the loan authorization agreement. Neither the lenders nor the district office
identified the expired loans and, therefore, action was not taken to cancel the guarantees. As a
result, guarantees could have been provided based on information that is outdated.

        Each loan applicant provides financial and background data to indicate their credit­
worthiness and repayment ability. Lenders supplement this information with credit reports and
tax information from the IRS to further verify creditworthiness and repayment ability. Because
this information is a basis for loan approval, it should be accurate and timely. Per SOP 50 10 3,
personal financial information should be provided within 90 days of the application date. Also,
an interim business financial statement for the current period should be prepared when the year­
end business financial statement is not within 90 days of the application date.

        Once the loan application is approved, SBA, the lender, and the borrower execute an
Authorization and Loan Agreement (loan agreement) containing the conditions and requirements
for the loan. Among the conditions and requirements are time limits for the first and final
disbursements ofloan proceeds. These time limits cannot be exceeded without the prior
approval of SBA.
        Of the 30 loans reviewed, we identified 2 where the proceeds had not been disbursed and
the time periods for disbursement specified in the loan agreements had elapsed. Details are as
follows.
       • 	 A loan IL.           ), (sample number 19), with a 54 percent guarantee, was
           approved   r.             )for construction of a hotel. The loan agreement required
           the first disbursement to be made not later than 9 months from the approval date and
           no disbursement to be made later than 12 months from the approval date, unless such


                                                  11
          time is extended based on prior written consent from SBA. As of(
          " J 18 months after the approval date, no disbursement had been made. The
          lender's loan officer stated that he did not ask for an extension because he believed
          the loan would never be disbursed and that SBA would automatically cancel the loan
          after the expiration date.

       • 	 A loan for t           ::"sample number 30), with a 70 percent guarantee, was
           approveci C.              J, for acquisition of land and related improvements. The loan
           agreement required the first disbursement to be made not later than 6 months from the
           approval date and no disbursement to be made later than 9 months from the approval
           date, unless such time is extended based on prior written consent from SBA. The
           borrower requested the lender to cancel the loan application. As of December 31,
           1997, SBA had not been notified of the cancellation and :c            1 guarantee
           authority was still obligated for this loan.

        By not identifying and canceling these loans, SBA risked disbursement of loan proceeds
based on outdated credit and financial information. For sample numbers 19 and 30, the credit and
financial information was at least 20 and 18 months old, respectively, as of December 31, 1997.
Significant changes could have occurred to both the creditworthiness and repayment ability of the
borrowers during these periods. In addition, guarantee authority that could have been applied to
other loans remained obligated unnecessarily.

Recommendations

       We recommend the District Director, Atlanta District Office, take the following actions:

       2A.     Cancel the guarantees for each of these loans (sample numbers 19 and 30).
       2B.     Inform all lenders of the need to either request an extension of the disbursement
               period or to request cancellation of the loan whenever the disbursement time limit
               is exceeded.

Atlanta District Director's Response

        The District Director agreed with the finding and recommendation. She stated that the
lenders have submitted requests for loan cancellations and that all lenders would be notified of
their responsibility to let SBA know in a timely manner when loan commitments are no longer
valid.

Evaluation ofthe Atlanta District Director's Response
       The district office response is acceptable.
                                          Other Matters
Lender Misrepresentation
       We identified one instance where a lender misrepresented facts concerning processing a


                                                 12            E: x,   '-+
loan. This information is presented for action, as appropriate, by the Atlanta District Director.

        A loan fore      J (sample number 21) was approved in G                1 The lender was
required to obtain an IRS verification of the borrower's 1995 tax return. A vice president of the
lender signed a statement for the closing agent stating that the verification was obtained and that
the verification conformed with the tax return submitted by the borrower. The loan closed
 C                J When asked by the auditor, the vice president admitted that the verification
had not been obtained prior to the loan closing.

Borrower Misrepresentation

        The auditors requested criminal history reviews for the principals of each loan in the audit
sample. The results of one of the criminal history checks showed that a borrower misrepresented
his criminal history. The borrower's criminal history contained offenses serious enough to
preclude fmancial assistance from SBA. This loan was forwarded to our investigative division
for review and possible criminal prosecution.

        A loan for c.;     J (sample number 6) was made ir, [       J for the construction of a
convenience store. The borrower stated on SBA Form 912 that he had never been arrested. A
criminal history check, however, showed that the borrower had five arrests and had been
convicted of felonies. The lender had disbursed most of the proceeds by the time it was informed
of the results of the criminal history check.




                                                           EX'.   I-J.

                                               13
I

                                                                                                                                                        Appendix A
                                  Schedule of Loans Reviewed and Their Status as of December 31, 1997

         SAMPLE 
  LOAN                                                                          LOAN 
                 LOAN
         NUMBER 
 NUMBER                            BORROWER                                    AMOUNT 
               STATUS                           TYPE
            1
            2
            3
            4
                  r-----1
                                 r
                                 \

                                 ,
                                  I                                           I    I
                                                                                               s\
                                                                                                  I
                                                                                                         l
      i
                                                                                                                     Current
                                                                                                                     Current
                                                                                                                     Current
                                                                                                                     Canceled
                                                                                                                                                  PLP
                                                                                                                                                  PLP
                                                                                                                                                  PLP
                                                                                                                                                  REG
            5                                                                                                i       Current                      CLP
            6                    ,                                             !,                 !          I
                                 ,
                                 I                                                                i                  Current                      PLP
            7
                                 i,
                                                                               !                  I          f       Current                      CLP
    m       8                                                                  "
                                                                                                  !          i       ---------                    -----
            9                                                                                     ,
    X                                                                                             1
                                                                                                             i       Past Due                     PLP
           10
                                                                                                  !          I       Canceled                     PLP
           II                                                                                     I,     L
                                                                                                                     Current                      REG
    +
     12
           13
                                 i,                                                               i                  Not Disbursed
                                                                                                                     Current
                                                                                                                                                  PLP
                                                                                                                                                  PLP
           14                                                                                                        Canceled                     PLP
           15                                                                                     I, 
               Canceled                     PLP
           16                                                                                     ,i 
               Current                      PLP
           17                                                                                                        Current                      CLP
           18                                                                                                        Current                      CLP
           19                                                                                            i           Not Disbursed                REG
           20                                                                                    ,                   Current                      PLP
                                                                                                         ,
           21                                                                                                        Paid-in-Full                 CLP
                                                                                                         ,
           22                                                                                                        Current                      PLP
           23                                                                                                        Current                      PLP
                                                                                                         !
           24               ,                                                                                        Current                      REG
           25               I,                                                                                       Current                      CLP
           26                                                                                                        Current                      CLP
           27                                                                                                        Current                      CLP
           28                                                                                                        Current                      REG
           29                                                                                                        Current                      PLP
                                                                              ,
                                                                                                 - -,
           30                                                                                                        Canceled                     CLP
           31     ~-J             ,-                                         _I
                                                                                                                     Current                      PLP




                                                                                       -"-,~----------~--->~---                  ,,---._-,   ------~-
                                                                             Appendix B 

                                                                             Page 1 of 6_ 



                         U. S. SMALL BUSINESS ADMINISTRATION 

                                     Peachtree-25th Complex 

                               1720 Peachtree Road, N.W., 6th Floor 

                                     Atlanta, Georgia 30309 



Date:            March 30, 1998

To:              Peter L. McClintock, Assistant Inspector General for Auditing
                                     "       .
                                                    ----_.
                                              c::. tf>I
                                                        -.,(
Thru:            Laura A. Brown, DIstnct Director ~".

From:            Eugene Merriday, ADDlED ., iJ-­

Subject:         IG Audit of ~[




l.A. 	 We do not concur with recommendation to reduce the guarantee percentage of
       Sample #' s 5 & 11. The reasons for each is spelled out as follows:

        Sample #5:
        Subject loan was submitted by t                                  .J whose specialty is
        financing Veterinary Medicine Practices. The issue of equity injection was posed by
        the loan officer upon the original submission. Historical cash flow of the practice
        was considered to be a strong contribution to repayment ability. The credit report
        of the purchaser was also deemed strong as to the character of the applicants to
        include prompt government student loan payments. The sel,ler expressed strong
        confidence in the applicants by absorbing some of the purchase price. The applicant
        has a significant investment in the practice of Veterinary Medicine.

        Opening ofthe business account with $5,000 should be recognized as an equity
        contribution, regardless to source. The showing of a $5,000 stock certificate
        would not constitute an equity injection for the purpose of compliance with the
        authorization paragraph 4.f(12). However, the purpose of the additional $5,000
        was to fund working capital as distinguished from purchase of a capital asset.
        These funds should also have been immediately deposited onlbefore closing. The
        mitigating circumstances are already reflected in the reduced guarantee from 75%
        to 50%. This increased the risk to the applicant (Medical career at stake), the
        seller (subordinated debt), and the lender doubled their risk from (.
                   J Further reduction of the guarantee percentage would not serve a
        meaningful purpose at this juncture.

        Sample 11:
        Subject loan appears to have been disbursed in accordance with the authorization
        paragraph 4.f(14). The stamp action dated L      ::J approved the working capital
                                                                             Appendix B 

                                                                             Page 2 of 6 



                        U. S. SMALL BUSINESS ADMINISTRATION 

                                    Peachtree· 25th Complex 

                              1720 Peachtree Road, N.W., 6th Floor 

                                    Atlanta, Georgia 30309 

        increase by the lender from $24,000 to $69,400. Additionally, the seller reduced
        the price of the inventory by $44,590 due to an actual count at closing. This
        change provided the applicant sufficient funds to purchase replacement inventory
        necessary for the attainment of the projected sales level. Paragraphs 4.f.(14)(b) &
        (c) of the authorization were documented by the seller note receivable from the
        purchaser for $50,000, and the buyer acknowledgment of receipt of $50,000 of
        foregone earnings and bonuses. The purchase price of the business was
        established by a willing buyer and seller at arms length for $590,000. The SBA
        guaranteed loan did not finance the entire purchase of the business but $445,410 of
        the purchase accompanied by the buyer/seller input of $100,000 and C'              J
        added to working capital based on the reduced inventory. The net effect was
        reduction of the purchase price which benefited the applicant, reduced the
        potential exposure of the agency, and preserved a 75 year old business in t.:      ,
            .                         1. Reduction of the guarantee percentage would not
        be deemed to be meaningful under the circumstances.

l.B. 	 We do not concur with recommendation to reduce the guarantee percentage of
       Sample # 25 The reasons are spelled out as follows:

       This trial CLP loan was submitted as a co-borrower application for . C                ~
                    ..                                :1. The loan file does not indicate that
       the debt refinancing spelled out in the authorization paragraph 3.b.(8) was for a
       personal auto. Documentation of personal/business use was not provided by the
       applicant/lender. It appears that the refinancing was for a jeep, as disclosed on the
       Form 4, debt section. However, it should be noted that they also had personal
       ownership of a 1992 Ford. The corporate tax return for 1994 showed 2 additional
       vehicles owned which were 100% depreciated. This shows availability of 4 vehicles
       for purposes of business/personal for a minimum of 2 people. It was not
       determinable that the refinanced vehicle was personaL Additionally, the corporate
       balance sheet indicates that $39,204 was owed to the principles and the $17,000
       debt may have been a part of the amount due for financing the vehicle personally
       but used for business. The personal vehicle aspect has not been sufficiently
       analyzed to make an eligibility determination. The vehicle would have to have been
       a luxury type vehicle to support an eligibility determination. It is not felt that the
       $17,479 refinancing has been determined to be personal, at this time, without
       further study.



l.C.   We do not concur with the recommendation to reduce the guarantee percentage of
       Sample # 28 The reasons are spelled out as follows:
                                                                                             Appendix B 

                                                                                             Page 3 of 6 





 ~
       \"BUSI
 ~"                  ~~
.
~

-,                      .,.	
                          	
                                         U. S. SMALL BUSINESS ADMINISTRATION
                                                     Peachtree-25th Complex
" ~/A.   1953 	 ..I{'
                     0	                        1720 Peachtree Road, N. W., 6th Floor
      ·y!ST\\ ....                                   Atlanta, Georgia 30309


                        Lender and applicant did not appear to be in compliance with paragraph 4.f(1O) of
                        the authorization to the extent of $62,188. It has been determined that at closing,
                        the applicant received credit for $25,000 in deposit or earnest money, and $60,000
                        for the note due to the seller. The applicant additionally paid $3,938.64 at closing.
                        This would give him credit of$28, 938.64 towards the $65,000 equity requirement.
                        The difference of $36,061.36 vs. $62,188 is at issue but should be allowed to be
                        offset by the $60,000 note due to the seller which served to reduce the risk to the
                        agency. The $60,000 note has since been paid in full and further reduces the
                        agency's risk.

         I.D. 	 We do concur with the recommendation to re-emphasize to lenders their
                responsibility for verification of equity injections and IRS financial data. However,
                equity injections and IRS financial data verification are issues which become a part
                of the Pre-Purchase Review process in the event of default on a loan. The lender
                referenced in 1. C. above, as a result of the audit is now very keenly aware of the
                need for verification of equity injection and IRS financial data. So much so, that the
                bank policy is not close a loan without verification of IRS financial data from the
                seller. This was a very positive result of the audit. However, given the one
                instance of IRS financial data non compliance, it is felt that compliance is generally
                being accomplished by SBA lender participants.

         The IG staff is to be applauded for their comprehensive review and analysis of the
         referenced loan files. However, sample #'s 5, 11, 25, and 28 are not deemed to be at risk
         to the Agency.
                                                                            Appen:iix B 

                                                                            Page 4 of 6 



                        U. S. SMALL BUSINESS ADMINISTRATION 

                                    Peachtree· 25th Complex 

                              1720 Peachtree Road, N.W., 6th Floor 

                                    Atlanta, Georgia 30309 



Date: 	         April 10, 1998

To: 	          Peter L. McClintock, Assistant Inspector General for Auditing

Thru: 	        Laura A. Brown, District Director     4   iJ.::J. ~

From: 	        Eugene Merriday, ADDlED        Jr-­
Subject: 	     FINDING 2 Loans Not Disbursed Within Required Time Limits-Samples
               19& 30


2.A. Sample 19 has been researched and the findings determined to be correct. The loan
     was not disbursed timely in accordance with the authorization. We initiated
     commudcation with the lender and determined that it was an oversight on their part
     as a result of poor communication with the applicant. The lender has submitted a
     request dated 4/8/98 to cancel the loan and it ha~ since been canceled.

2.B. 	 Samp!e 30 has also been research'!d and the findings determined to be correct. This
       loan was also not disbursed timely in accordance with the authorization. We initiated
       communication with the lender and t'.etennined that i~ was also an oversight on their
       part. The lender has submitted a request dated 411 0/98 to cancel the loan. We will
       move forward to cancel the loan in its entirety upon receipt thereof

°It should be noted that after approval of a loan, the authorization is issued to the lender
along with closing instructions. The burden than rests with the lender to make the 1" and
final disbursements in accordance with the authorization. Technically, the conditional
commitment to guarantee by SBA expires when final disbursement is not made. The
purpose of the I" and final disbursement in the authorization is to eliminate outstanding
guarantees which are not fulfilled/do not have ·,0 be honored unless the agency approves
an extension..
                                                                                Appendix B
                                                                                Page 5 of 6
                                           u.s. Small Business Administration

 SBP\..                                   Sacramento Loan Processing Center
                                          660 J Street, Suite 233
                                          Sacramento, CA 95814-2413
                                          (916) 498-6446 Fax (916) 498-6434




Date: April 15, 1998

From: Richard Taylor, Center Directo~~l-.

RE: IG Audit Report re Atlanta Loans

To: Peter L. McClintock, Assistant Inspector General

Attached you will find a memorandum written by [                     _ l. the Center's
Counsel. t:    'memorandum,1:                   _ ] explains why your recommended actions
are inconsistent with our policy. I agree with t·             J. Unless the Acting
Assistant Administrator for Financial Assistance makes that a policy decision that SBA
staff should deny liability prior to receiving a request to pay on the guarantee, we
cannot consider doing your recommendations.




                                Ex.     5~(0 

                                                                                              Appendix B
                                                        u.s. Small Business Administration    Page 6 of 6



      SB~
                                                        Sac:ramento Loan Processing Center
                                                        660 J Street, Suite 233
                                                        Sac:ramento, CA 9S814.2413
                                                        Phone (916) 498,6433 Fax (916) 498.6434

     DATE: 	        April 15, 1998

     FROM:        ,	                        .
                                                ~
                                                /
                                                    ,



                   L
     RE: 	         IG Audit Report re Atlanta Loans

     TO: 	         Richard Taylor 

                   Center Director 



     You asked me to review the above draft report, dated February 24, 1998, as to the
     recommendations it made for action by the Center. IG reviewed processing and disbursement of
     a sample ofloans and recommended as to two PLP loans, that we reduce the guarantee
     percentage on one loan and attempt to obtain a guarantee release on the other loan because of
     processing and closing deficiencies.




 L	                                                                                                J
 The draft report notes on page 2 regarding "Follow-Up on Prior Audits" that this issue was raised
 following the last IG report on July 7,1997, in which it made similar recommendations. The
 District Director in that case also stated that denial of an SBA guarantee is appropriate only after
 SBA is requested to honor it. The report states: 

         The issue of the timing of a guarantee withdrawal has been referred to the 

         Acting Associate Administrator for Financial Assistance. Her decision on 

         an SBA policy is pending. 


r·

                                        J




                                                    Ex.      S'r1c
                                                               z;
                                                                                                   AppendixC


                                OFFICE OF INSPECTOR GENERAL 


                                   AUDIT REPORT DISTRIBUTION 



    Recipient                                                                               Number of Copies

Administrator ------------------------------------------------------------------------------------------- 1

Deputy Administrator --------------------------------------------------------------------------------- 1

(Jeneral <:ounsel----------------------------------------------------------------------------------------2

Associate Administrator for
 Field Operations -------------------------------------------------------------------------------------- 1

Associate Administrator for
 FinlUlcial AssistlUlce --------------------------------------------------------------------------------- 1

Deputy Associate Administrator for
 FinlUlcial AssistlUlce --------------------------------------------------------------------------------- 1

Associate Deputy Administrator for
 MlUlagement & Administration -------------------------------------------------------------------- 1

Office of the <:hief FinlUlcial Officer --------------------------------------------------------------- 1

District Director,
 AtllUlta District Office ------------------------------------------------------------------------------ 1

Director,
 Preferred Lender Program LolUl Processing <:enter --------------------------------------------- 1

(Jeneral Accounting Office --------------------------------------------------------------------------- 1
